U.S. Department of Labor
Office of Inspector General
Office of Audit




                          AUDIT OF
                     DESI’S PLACEMENTS
                     FOR THE PERIOD JULY 1, 1997 THROUGH JUNE 30, 1999




                                                  AUDIT REPORT No. 05-00-006-03-370
                                                  DATE ISSUED: August 10, 2000
                                                  TABLE OF CONTENTS



                                                                                                                                PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

INTRODUCTION AND BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVES AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          1.         Region V Job Corps and DESI did not Implement Adequate
                      Internal Controls Over Placements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          2.         Invalid Placements Were Submitted by DESI in
                      Program Years 1997 and 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          3.         Job Corps Should Collect $13,625 in Costs Associated with
                      Invalid Placements and Unearned Student Bonuses . . . . . . . . . . . . . . . . . . . . . . . 14

EXHIBIT A

          Narrative for Invalid Placements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

EXHIBIT B

          Schedule of Questioned Costs (Costs associated with invalid placements
           and unearned student bonuses) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

APPENDIX A

          Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                        ACRONYMS




CFR      -   Code of Federal Regulations

DESI     -   Dynamic Educational Systems, Inc.

DOL      -   United States Department of Labor

ETA      -   Employment and Training Administration

GED      -   General Educational Development

JACS     -   Joint Action in Community Service

JTPA     -   Job Training Partnership Act

OAP      -   Outreach/Admissions and Placement

OBES     -   Ohio Bureau of Employment Services

OIG      -   Office of Inspector General

PRH      -   Policy and Requirements Handbook

SPAMIS   -   Student Pay Allotment and Management Information System




                                i
                                     EXECUTIVE SUMMARY



The U. S. Department of Labor (DOL), Office of Inspector General (OIG), completed a limited audit
of Job Corps’ outreach/admissions and placement (OAP) contracts with the Dynamic Educational
System, Inc. (DESI) for the period July 1, 1997, through June 30, 1999. The objectives of our audit
were to assess the extent of invalid placements submitted by DESI, identify other potential invalid
placements, and evaluate Region V Job Corps, JACS and DESI’s control procedures.



   RESULTS OF AUDIT


Our audit identified the following issues:

        •       Lack of adequate internal controls by Region V Job Corps and DESI permitted the
                submission of invalid placements (see Finding 1).

        •       DESI submitted 77 invalid placements (see Finding 2).

        •       Job Corps should collect $13,625 in costs associated with invalid placements and
                unearned student bonuses (see Finding 3).

We recommend that the Assistant Secretary for Employment and Training direct the Office of Job
Corps to:

        •       implement procedures whereby notices of questionable student placements are sent to
                the contractors’ corporate offices;

        •       delete the invalid placements so that DESI’s accomplishments only reflect valid
                placements; and

        •       collect $13,625 from DESI for the cost associated with invalid placements and
                unearned student bonuses.

Region V Job Corps concurs with our findings and recommendations, and has taken steps to address
the recommendations. Region V Job Corps’ response is included in Appendix A.




                                                   ii
                            INTRODUCTION AND BACKGROUND



      Job Corps


The Job Corps program is administered by the U.S. Department of Labor (DOL), Employment and
Training Administration (ETA), through the Office of Job Corps.

The Job Corps program provides occupational exploration; world of work and social skills training,
and competency-based vocational and basic education. Occupational trades offered include
construction, automotive mechanics and repair, business and clerical, retail trades, health occupations,
computer occupations and culinary arts. Post-program placement services are provided for all
terminees.

The basic purpose of the Job Corps placement program is to ensure that necessary services and
activities are provided or arranged to ensure that all students leaving the Job Corps program are placed
in a job, the military or provided additional training.

The Office of Job Corps uses private contractors to carry out its endeavors. The contractors provide
materials, services and all necessary personnel to operate Job Corps outreach, admissions and/or
placement programs as set forth in Title IV-B of the Job Training Partnership Act (JTPA). Job Corps
also contracts to receive assistance for placement verification of former Job Corps students submitted
by the placement contractors.



      DESI


Dynamic Educational Systems, Inc. (DESI) is one of several entities contracting to provide training,
educational and placement services for the Job Corps program. Under the contract, DESI is required
to furnish outreach, admissions and placement (OAP) services to Job Corps students returning to
areas/states where it has placement responsibilities.

DESI was awarded OAP funds on April 18, 1995, to be responsible for the placement of 2,060 youths
returning to the State of Ohio. The contract was extended through a series of modifications to April 30,
1998, and the number of placements was reduced to 1,233. Afterward, DESI was awarded OAP
funds for the period May 1, 1998, through April 30, 1999, with four optional years, for the placement
of 1,233 youths returning to the State of Ohio. This contract was also extended via modification from
May 1, 1999, through April 30, 2000.

                                                    1
The contracts require DESI to provide a variety of placement services for terminating students with the
final objective being successful placements.



    JACS


Joint Action in Community Service (JACS) contracts with Job Corps to provide numerous services,
including placement reverification and post-placement surveys. Under the reverification section of the
contract, JACS is required to submit a notice of questionable student placement to Job Corps Regional
Offices when JACS obtains information which differs from information in the student’s record. Job
Corps then notifies the placement contractor (placer) of the questionable placement, requests a
response from the placer, and rules on the validity of the placement. JACS has an 8-week window in
which to verify a placement and complete a 13-week post-placement survey.



      Agency Request


This audit was requested by the Region V Job Corps Director after DESI reported that an internal
investigation confirmed one of its employees was submitting invalid placements. The Regional Director
requested that the OIG conduct an audit to provide some assurance as to the validity of its overall
placements.




                                                   2
                                    PRINCIPAL CRITERIA



Job Corps is authorized under Title IV-B of the Job Training Partnership Act (JTPA), which was
enacted October 13, 1982:

       . . . to assist young individuals who need and can benefit from an unusually intensive
       program, operated in a group setting, to become more responsible, employable, and
       productive citizens; and to do so in a way that contributes, where feasible, to
       development of national, State, and community resources, and to the development and
       dissemination of techniques for working with the disadvantaged that can be widely
       utilized by public and private institutions and agencies.

The implementing Regulation at 20 CFR 638.409 states, in part:

       The overall objective of all Job Corps activities shall be to enhance each student’s
       employability and to effect the successful placement of each student. Placement efforts
       shall concentrate on jobs related to a student’s vocational training, or military service
       when this is the student’s choice, or on acceptance and placement in other educational
       and/or training programs. . . .

Job Corps’ Policy and Requirements Handbook (PRH), Chapter 2 - Placement, Section 1.1.1 issued
in August 1993 states, in part:

       Job Corps placement is a student’s entry into and verification of:

        1. paid, unsubsidized employment in:

               a. employment or self-employment, either full-time or part-time (minimum of 20
               hours per week); or

               b. an apprenticeship program approved by the Bureau of Apprenticeship
               Training or a State Apprenticeship Council where the student receives a wage; or

               c. the Armed Forces, on active duty (full-time only; minimum of 40 hours per
               week). Active duty must begin within 6 months after termination. This does not
               include Reserve Forces or National Guard service. Pre-enlistment contracts are
               not placements.




                                                 3
Section 1.1.1 further states, in part:

        Only employment or attendance/enrollment verified as meeting the requirements of the
        placement definition within 6 calendar months after termination from Job Corps may be
        reported. . . .

The PRH was revised in October 1998 which changed the chapter number that covers placement.
Although the chapter changed, placement definitions and requirements were basically left intact.

Job Corps’ Policy and Requirements Handbook (PRH), Chapter 7 - Placement, Section R2. Reporting
states, in part:

Placement agencies shall:

        a. Report all placements that meet the criteria specified on Exhibit 7-2 and occur within
        6 months of separation from the Job Corps program.

Job Corps’ Policy and Requirements Handbook (PRH), Chapter 7 - Placement, Exhibit 7-1
PLACEMENT DEFINITIONS states, in part:

JOB PLACEMENT

    FULL-TIME

   1. 32 hours or more in one or two jobs in a 7 consecutive day period.

   2. An apprenticeship job registered by the Bureau of Apprenticeship and Training or a State
   Apprenticeship Council, or an unregistered job recognized by an employer, industry, or union
   that combines supervised, structured on-the-job training with related theoretical instruction
   leading to defined levels of skill and career advancement, and where the student receives a
   wage.

   3. Armed Forces: 40 hours minimum per week active duty beginning within 6 months of
   termination. This includes initial Reserve Forces and National Guard training but does not
   include weekend and summer training sessions. Pre-enlistments are not placements. The
   first 40 hour week must be completed prior to 180 days after temination [sic].

   PART-TIME

   1. 20 hours or more, but less than 32, in one or two jobs in a 7 consecutive day period.

                                                  4
EDUCATIONAL PLACEMENT

   1. High school: no less than 20 hours in class per week for an expected duration of one
   semester or trimester or quarter; or

   2. Post-secondary vocational training or technical education program: no less than 20 hours
   in class per week for an expected duration of at least 90 calendar days; or

   3. College: registered for no less than 9 credit hours per quarter or semester; or

   4. On-the-job-training or other subsidized employment: no less than 20 hours per week; or

   5. Other training program: no less than 20 hours in class per week for an expected duration
   of at least 90 calendar days.

COMBINATION JOB/COLLEGE

   FULL-TIME

   1. A combination of work and college (minimum 6 credit hours per quarter or semester in a
   2-year or 4-year college offering an associate or bachelor’s degree) and a minimum of 16
   hours work at one job per week.

   PART-TIME

   1. College enrollment for a minimum of 6 credit hours and a minimum of 10 hours work at
   one job per week.

Invalid placements, noted in our audit, occurred during periods when both the August 1993 and the
October 1998 versions of the PRH were in effect. However, because there was no significant
modification to the placement criteria between the two versions, we only cited criteria for the August
1993 version in our Findings and Recommendations section.




                                                    5
                              OBJECTIVES AND SCOPE OF AUDIT



Our audit objectives were to:

   •            assess the extent of invalid placements submitted by one of DESI’s employees;

   •            identify other potential invalid placements;

   •            test the validity of the remaining placements in the universe;1 and

   •            evaluate the control procedures over placements.


To accomplish our objectives, we reviewed a total of 162 placements reported to Student Pay
Allotment and Management Information System (SPAMIS) under the DESI Ohio OAP contract.
Specifically, we reviewed all invalid placements identified by DESI (55 placements); all placements that
listed the employee responsible for submitting invalid placements as the verifier for the placements (38
placements); and Program Year 1998 placements identified by JACS as questionable (24 placements).
 We also pulled a discovery sample from the remaining 2,092 placements reported by DESI in
Program Years 1997 and 1998 (45 placements).

We established our sample error rate at two percent for our discovery sample. An error rate in excess
of two percent indicates there is a high potential for other invalid placements; therefore, the sample
needs to be expanded and additional placements reviewed. For this audit, an error was considered to
occur when a placement was deemed fabricated (no employer existed or an employer denied that a
student was ever employed).

To validate these placements, we reviewed the documentation in the students’ placement files, obtained
wage records from the Ohio Bureau of Employment Services (OBES), and contacted placement
employers or educational institutions listed on the Job Corps Placement and Assistance Records (ETA
Form 678). We also made site visits to some of the employers’ addresses reported on the ETA Form
678 and conducted searches over the Internet.




        1
      For the purpose of this audit, a universe is the total number of placements reported to
SPAMIS during a given period.


                                                     6
Additionally, we interviewed officials at Region V Job Corps, JACS Computer Operations Division,
DESI’s Corporate Office, and DESI’s Ohio Project Office. The audit period covered July 1, 1997,
through June 30, 1999.

It should be noted that we only attempted to determine if the employment, school or training met the
minimum definition of a placement. As such, we noticed that some placements were claimed as full-
time but only met the part-time definition, and some hourly wages reported on the ETA 678 were
higher than wages confirmed by the employers. Nevertheless, we did not take exception to those
placements.

Our audit was performed in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States. Our audit
included tests as we considered necessary in the circumstances. Statistical sampling was used because
the total number of placements was too voluminous to review placements in their entirety.

As required by the Government Auditing Standards and the American Institute of Certified Public
Accountant Statements on Auditing Standards Nos. 54, Illegal Acts by Clients and 82,
The Auditor’s Responsibility to Detect and Report Errors and Irregularities, we designed the audit
to provide reasonable assurance of detecting instances of abuse, potential fraud or inefficient practices
that could result in increased costs to the Federal Government.

Our audit was performed using the criteria we considered relevant. This criteria included
those established by Job Corps.



  ENTRANCE/EXIT CONFERENCE


We held an entrance conference with Job Corps officials on October 13, 1999. After conducting field
work, we held an exit conference with Job Corps officials on June 6, 2000, to discuss the tentative
findings presented in the report.




                                                    7
                       FINDINGS AND RECOMMENDATIONS


 FINDING 1. REGION V JOB CORPS AND DESI DID NOT IMPLEMENT
 ADEQUATE INTERNAL CONTROLS OVER PLACEMENTS


We found that internal controls established by Region V Job Corps and Dynamic Education System,
Inc. (DESI) were insufficient to prevent invalid placements from being reported as program
accomplishments. Failure of both entities to establish proper internal controls resulted in at least 77
invalid placements being reported in Program Years 1997 and 1998.

A. Internal Controls Over Placements in Region V Job Corps Need to be Strengthened

Region V Job Corps’ controls need to be strengthened whereby placements identified by JACS as
questionable are investigated more thoroughly by Job Corps to determine the placements’ validity.

We reviewed 31 notices of questionable student placements that Region V Job Corps received from
JACS in Program Year 1998 for DESI’s Ohio contract. Job Corps forwarded the questionable
placements to DESI’s Ohio Project Office for followup and response. All
31 questionable student placements were determined to be valid based on the Project Office’s
response. However, our review of the 312 questionable student placements disclosed that
17 (55 percent) were invalid because the employment, school or training reported were either
fabricated or failed to meet Job Corps’ definition of a placement.

Many of the invalid placements were not detected because of a lack of adequate scrutiny by Region V
Job Corps to identify problems. For example, we noted that JACS had informed Region V Job Corps
that three placements could not be confirmed because the reported employer’s address did not exist.
Yet, Region V Job Corps allowed the placements based on DESI’s Project Office response. We also
found two instances where JACS identified placements as questionable after the employer categorically
denied that the students worked there, or the employer indicated that they had no record of the
students’ employment. These placements were also accepted as valid by Job Corps based on
information from DESI. All five questionable placements were allowed without any independent
verification or internal followup by the Region V Job Corps staff.

OIG recognizes that Job Corps took a significant step to ensure valid placements are being submitted
by contracting with JACS to perform reverification. The reverification acts as Job Corps’ first line of


        2
            Includes 7 placements that were part of the 55 invalids identified by DESI.

                                                      9
defense to alert the agency of potential problem placements. However, in PY 1998, the reverification
had little impact because we found no evidence that Region V Job Corps conducted detailed
assessments as to the questionable placements’ validity. As a result, many of the invalid placements
that might have been detected with closer scrutiny were not uncovered.

B. DESI Lacked Adequate Internal or Monitoring Controls Over Placements

DESI failed to adequately monitor and oversee its field operations. Specifically, DESI lacked a
mechanism, either through the Job Corps Regional Office or through an active control system, to keep
its corporate office abreast of potential problem placements. This lack of active involvement allowed
indicators (flags) of potential problems to go undetected, and ultimately caused DESI’s failure to meet
the following terms of the contract.

Section C, Item I.B.1.g of contract number 5-JC-969-39, awarded April 24, 1998, states in part:

   The contractor will be responsible for the following:

                C       Ensuring that collection of data is accurate, current and transmitted on a
                        timely basis;

The contract further states in Section C, Item I.B.2.e:

                It is required that all placements claimed, and reported as such, be truly valid
                placements as defined in the Policy and Requirements Handbook (PRH), Chapter
                2, and elsewhere in this contract.

It is also our opinion that DESI’s internal review procedures were not designed to provide reasonable
assurance that problem placements would be reviewed and/or detected. DESI’s review process did
not ensure that all placements were accounted for and available, nor did the process provide for
random selection of placements so that all placement files had a possibility of being selected. Instead,
DESI arbitrarily pulled files for review and missed the problem files.

DESI had a responsibility to monitor its project offices and implement control procedures to ensure the
integrity of placement data. Although it appears that DESI issued some guidelines, our review revealed
that DESI did not enforce the guidelines. DESI’s Placement Specialist Handbook, created March
1997 and revised April 1999, states “[i]n accordance with DESI’s Placement Policy, all questionable
placements are to be reported to corporate office.” However, according to the DESI’s former OAP
Director, none of the offices reported the questionable placements to the Corporate Office. Because
DESI’s controls were ineffective, the problem placements were not uncovered until their Corporate
Office received a tip alleging invalid placements.



                                                    10
DESI was implementing new policies regarding placements during the time of our field work. The new
policies appear to be adequate to prevent the recurrence of the problem identified.

Although DESI’s policies appear to address the weaknesses stated above, we believe that an
additional safeguard is warranted to help prevent fabrication of placements at the project offices’ senior
management level. Project office directors are responsible for forwarding questionable student
placements to the Corporate Office. However, the Corporate Office has no independent means to
determine if the project office directors are complying with the policy. Therefore, we believe that an
additional control should be in place where an independent source provides questionable student
placements to the Corporate Office. The additional control will act as a deterrent against project office
directors fabricating placements. Furthermore, DESI’s corporate officials found several instances
where they believed they would have benefitted from receiving questionable placements directly from
the independent contractor.




    RECOMMENDATIONS


We recommend that the Assistant Secretary for Employment and Training require Region V Job Corps
to:

•    conduct detailed assessments as to the questionable placements’ validity, and

•    change its procedures so that all memoranda of questionable student placements are not only sent to
     the project offices, but also to the contractors’ corporate offices with the requirement that corporate
     officials certify that all resubmitted placements are valid.


Agency’s Response:

All questionable placements will be sent directly to the placement agency’s corporate office. The
corporation will then respond directly to the Regional Office, and thus be held accountable for the
results of the query. The Regional Office will review the response, decide the validity or invalidity of the
placement, spot check the responses by calling the employer and/or the student, and send the response
to JACS.

Auditor’s Conclusion:

We believe Region V Job Corps’ new procedures are sufficient to resolve this finding. However, we
cannot close this finding until we have evidence that the procedures have been implemented.

                                                     11
  FINDING 2. INVALID PLACEMENTS WERE SUBMITTED BY DESI IN
  PROGRAM YEARS 1997 AND 1998


 We found 77 invalid placements. Job Corps’ Policy and Requirements Handbook (PRH), Chapter 2 -
 Placement, Section 1.1.1 states, in part:

     Job Corps placement is a student’s entry into and verification of:

     1. paid, unsubsidized employment in:

                  a. employment or self-employment, either full-time or part-time (minimum of 20
                  hours per week); or

                  b. an apprenticeship program approved by the Bureau of Apprenticeship
                  Training or a State Apprenticeship Council where the student receives a wage; or

                  c. the Armed Forces, on active duty (full-time only; minimum of 40 hours per
                  week). Active duty must begin within 6 months after termination. This does not
                  include Reserve Forces or National Guard service. Pre-enlistment contracts are
                  not placements.

Section 1.1.1 further states, in part:

   Only employment or attendance/enrollment verified as meeting the requirements of the
   placement definition within 6 calendar months after termination from Job Corps may be
   reported. . . .

Job Corps assesses employment and/or further educational outcomes of students after they leave its
program using placement measures. Job Corps also uses placement data to perform periodic
assessments of a contractor’s actual performance and as an evaluation mechanism to award future
contracts.




                                                  13
Our audit disclosed the following:

                                                                                        Total

            Total Number Reviewed                                                           162
                  Fabricated Placements                                                     63
                  Employer denied employment or had no record of employment                     8
                  Employment did not meet placement definition                                  2
                  School/Training did not meet placement definition                             4
            Total invalid placements*                                                       77
            Unable to Verify                                                                    8
                *We have addressed the specifics regarding each invalid placement in Exhibit A.

As illustrated above, we reviewed 162 placements of which 77 were found to be invalid. Invalid
placements distort the contractor’s true accomplishments, and provide Job Corps with misleading
information used in evaluating performance when awarding future contracts. Furthermore, invalid
placements cause the Government to incur costs associated with placement bonuses paid to the
students.

Although we identified 77 invalid placements, we believe more invalid placements may exist. Our
discovery sample led us to believe, with 90 percent certainty, that the universe has more than 2.2
percent errors. Considering the small sample and the sampling error, we concluded, at
90 percent confidence level, that the universe can have a discrepancy rate as high as 6 percent
(approximately 126 placements). However, OIG is deferring to Job Corps to determine if additional
testing is warranted.



 RECOMMENDATIONS


We recommend that the Assistant Secretary for Employment and Training require Region V Job Corps
to:

   •            delete the invalid placements so that DESI’s accomplishments only reflect valid
                placements; and



                                                      14
   •           ascertain if further testing is warranted.


Agency’s Response:

A letter was sent to the Data Center requesting the deletion of 62 placements from Program Year 1998,
and 15 placements from Program Year 1997. This accounts for the total 77 invalid placements.

Auditor’s Conclusion:

Actions taken by Region V Job Corps should resolve this finding. However, we cannot close the finding
until Job Corps has submitted sufficient evidence that the 77 invalid placements have been deleted.




                                                     15
 FINDING 3. JOB CORPS SHOULD COLLECT $13,625 IN COSTS
 ASSOCIATED WITH INVALID PLACEMENTS AND UNEARNED STUDENT
 BONUSES


DESI should repay Job Corps $13,625 in costs associated with invalid placements. DESI’s contract
with Job Corps stipulates that DESI pay $199 for all placements reported to SPAMIS that are later
determined to be invalid. DESI is also required to reimburse the costs incurred for the related student
bonuses.

Section C, Item I.B.2.E. REPAYMENT OF COSTS ASSOCIATED WITH INVALID PLACEMENTS
of Contract #5-JC-969-39, awarded April 24, 1998, for the period commencing May 1, 1998, states in
part:

                By entering into this contract, the contractor agrees to repay the Government the
                price $199 plus bonus for invalid placements.

                Further, as a result of the contractor’s submitting invalid placement data to
                SPAMIS, the Government incurs costs associated with bonuses paid students.
                Since the Government would not have otherwise incurred these bonus costs, the
                contractor further agrees to reimburse such costs as prescribed in the PRH. . . .

As discussed in Finding 2, DESI submitted 77 invalid placements. Of the 77 invalid placements
submitted, 49 placements came under the above contract clause and 19 students were issued and
cashed placement bonus checks (see Exhibit B).

Because the placements reported to SPAMIS were invalid, DESI received credit and students were
issued bonuses that they were not entitled to receive. Therefore, DESI should repay $9,751 ($199
times 49) for invalid placements submitted to SPAMIS and $3,874 in costs associated with student
bonuses as noted in Exhibit B.



 RECOMMENDATION


We recommend the Assistant Secretary for Employment and Training require Job Corps to recover
$13,625 ($9,751 plus $3,874) from DESI for submitting invalid placements data to SPAMIS and for
the costs associated with student bonuses.




                                                   16
Agency’s Response:

A letter requesting a check for the amount of $13,625 was sent to the DESI corporate office. This
amount will reimburse the government for services not provided by the contractor as a result of invalid
placements.


Auditor’s Conclusion:

Region V Job Corps should ensure that the re-payment of $13,625 is made to the Government for the
invalid placements and the associated student bonuses. Therefore, this finding will remain open until such
evidence of re-payment has been received by OIG.




                                                   17
                                                                             EXHIBIT A



                        Narrative for invalid Placements


Prior to our audit, 55 placements were identified by DESI as invalid after an internal
investigation. The 55 placements were determined to be fabricated.

Another nine placements were determined to be invalid by OIG because the placements
were fabricated. These placements had one or more of the following discrepancies:

•       The name listed as the individual confirming the placement was a fictitious name
        manufactured by the Project Director. The Project Director had submitted other
        invalid placements using the same employer name.
•       Telephone attempts revealed the employers’ contact numbers provided on the
        ETA 678 were incorrect.
•       Letters requesting verification sent by overnight delivery were returned
        undelivered because no such addresses existed.
•       There was no documentation in the file to support the placements.
•       Wage records did not show any wages reported for the placement employers.

Eight placements were determined to be invalid because the employer denied
employment or had no record of employment. These placements had one of the
following discrepancies:

C       The employer stated that the student never worked there and that it has never
        hired Job Corps students.
C       The employer stated that he has no record of the student being employed.
C       An automated employment verification system indicated that the placement
        employer code and the student’s social security number did not match.

Two placements were determined to be invalid because the employment did not meet
the definition of a placement. These placements had one or more of the following
discrepancies:

C       The employer indicated that the student never returned after the training period.
•       Wage records support less than 20 hours of employment.
•       The information provided by the employer indicates that the employment date
        was outside the 6-month period.




                                   18
                                                       EXHIBIT A (CONTINUED)



                      Narrative for Invalid Placements


Four placements were determined to be invalid because the school/training did not
meet the definition of a placement. These placements had one of the following
discrepancies:

•      The educational institution indicated that the student attended the GED Program
       for 4 months, but never attended classes for more than 12.5 hours in any month.
•      The hours and days attended, provided by the educational institution for the
       student, supported less then 20 hours of classes per week.




                                 19
                                                                          EXHIBIT B

                          AUDIT OF DESI’S PLACEMENTS
     COSTS ASSOCIATED WITH INVALID PLACEMENTS AND UNEARNED STUDENT BONUSES
                                Schedule of Questioned Costs
                                         For the Period
                              July 1, 1997 through June 30, 1999

                     INVALID        PLACEMENT         TOTAL TO BE     AMOUNT
     PLACEMENT      PLACEMENT         BONUSES         REPAID TO       REPAID        QUESTIONED
       DATE           COSTS         OUTSTANDING GOVERNMENT GOVERNMENT                AMOUNT


 1       06/01/98         $199                   $0          $199              $0          $199
 2       09/27/98             199                 0           199               0           199
 3       10/15/97               0                 0               0             0                0
 4       07/01/98             199                92           291               0           291
 5       08/01/97               0                 0               0             0                0
 6       07/10/98             199                 0           199               0           199
 7       07/15/98             199                 0           199               0           199
 8       10/27/98             199                 0           199               0           199
 9       09/27/98             199                 0           199               0           199
10       05/08/98             199                 0           199               0           199
11       09/10/98             199                 0           199               0           199
12       09/21/97               0                 0               0             0                0
13       07/02/98             199                 0           199               0           199
14       08/18/97               0                 0               0             0                0
15       07/21/97               0                 0               0             0                0
16       08/28/98             199                 0           199               0           199
17       09/10/98             199               323           522               0           522
18       06/01/98             199                 0           199               0           199
19       10/23/98             199                 0           199               0           199
20       07/02/98             199                 0           199               0           199
21       12/15/97               0                 0               0             0                0
22       09/15/98             199                 0           199               0           199
23       12/22/97               0                 0               0             0                0
24       09/27/98             199                 0           199               0           199
25       09/20/97               0                 0               0             0                0
26       08/20/97               0                 0               0             0                0
27       03/19/98               0                 0               0             0                0
28       07/14/98             199                 0           199               0           199
29       06/01/98             199                 0           199               0           199
30       06/21/97               0                 0               0             0                0
31       09/19/98             199                 0           199               0           199
32       01/18/98               0                 0               0             0                0
33       09/28/98             199                 0           199               0           199



                                             20
                                                             EXHIBIT B (CONTINUED)

                          AUDIT OF DESI’S PLACEMENTS
     COSTS ASSOCIATED WITH INVALID PLACEMENTS AND UNEARNED STUDENT BONUSES
                                Schedule of Questioned Costs
                                         For the Period
                              July 1, 1997 through June 30, 1999

34       03/15/98               0                 0               0            0                0
35       10/28/97               0                 0               0            0                0
36       10/27/98             199                 0           199              0           199
37       07/25/98             199               231           430              0           430
38       10/07/98             199                 0           199              0           199
                     INVALID        PLACEMENT         TOTAL TO BE     AMOUNT
     PLACEMENT      PLACEMENT         BONUSES         REPAID TO       REPAID       QUESTIONED
       DATE           COSTS         OUTSTANDING GOVERNMENT GOVERNMENT               AMOUNT


39       06/03/98             199                 0           199              0           199
40       10/15/97               0                 0               0            0                0
41       08/14/97               0                 0               0            0                0
42       08/13/97               0                 0               0            0                0
43       09/27/98             199                 0           199              0           199
44       11/06/98             199                 0           199              0           199
45       06/01/98             199                 0           199              0           199
46       09/23/98             199                 0           199              0           199
47       08/17/98             199                 0           199              0           199
48       10/21/97               0                 0               0            0                0
49       06/27/98             199                 0           199              0           199
50       06/05/98             199                 0           199              0           199
51       10/07/98             199                 0           199              0           199
52       10/01/98             199                 0           199              0           199
53       11/15/98             199                 0           199              0           199
54       07/17/97               0                 0               0            0                0
55       06/15/98             199                 0           199              0           199
56       08/30/97               0                 0               0            0                0
57       03/08/99             199               323           522              0           522
58       07/16/98             199               231           430              0           430
59       09/19/98             199               323           522              0           522
60       03/20/98               0                92            92              0             92
61       03/19/99             199                92           291              0           291
62       04/21/99             199                92           291              0           291
63       09/30/97               0                 0               0            0                0
64       10/14/98             199               323           522              0           522
65       01/25/98               0                 0               0            0                0
66       11/07/98             199               323           522              0           522



                                             21
                                                              EXHIBIT B (CONTINUED)

                           AUDIT OF DESI’S PLACEMENTS
     COSTS ASSOCIATED WITH INVALID PLACEMENTS AND UNEARNED STUDENT BONUSES
                                 Schedule of Questioned Costs
                                          For the Period
                               July 1, 1997 through June 30, 1999

67       04/19/99              199               323           522               0           522
68       09/25/98              199                92           291               0           291
69       ‘04/07/98               0                92            92               0             92
70       05/07/97                0                 0               0             0                0
71       07/13/98              199                92           291               0           291
72       01/16/98                0                 0             0               0             0
73       08/21/98              199               323           522               0           522
74       12/13/98              199                 0           199               0           199
75       11/16/97                0               323           323               0           323
                      INVALID        PLACEMENT         TOTAL TO BE     AMOUNT
     PLACEMENT       PLACEMENT         BONUSES         REPAID TO       REPAID        QUESTIONED
       DATE            COSTS         OUTSTANDING GOVERNMENT GOVERNMENT                AMOUNT


76       03/10/98                0                92            92               0             92
77       10/14/98              199                92           291               0           291
          TOTAL          $9,751             $3,874         $13,625              $0       $13,625




                                              22
                    APPENDIX A




AGENCY’S RESPONSE




       23
     APPENDIX A




24
     APPENDIX A




25
     APPENDIX A




26
